Leanna M. Anderson
leanna.anderson@dentons.com
D

+1 214-259-0972

Dentons US LLP
2000 McKinney Avenue
Suite 1900
Dallas, TX 75201-1858
United States
dentons.com

July 2, 2020

Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

Re:

Enclosed Petition for Writ of Certiorari for CATIC USA Incorporated, aka AVIC International USA

Dear Clerk of the Court:
My application for admission to the United States Supreme Court bar was submitted on or about June 29,
2020. I contacted the admissions office prior to filing this brief and was informed that I would not be
admitted until August 2 or 3, 2020, based upon the Court’s schedule. However, I was advised that I could
appear on the writ, provided that I listed my application as pending. Thus, I am hereby filing this writ with
notice that my application is pending. Although I intend to substitute in as counsel of record, I have asked
a colleague from my firm, who is admitted to this bar, to sign these documents and timely e-file.
Thank you.
Very truly yours,

/S/ Leanna M. Anderson
LA:
115084071

Rattagan Macchiavello Arocena ► Jiménez de Aréchaga, Viana & Brause ► Lee International ► Kensington Swan ► Bingham Greenebaum ►
Cohen & Grigsby ► Sayarh & Menjra ► Larraín Rencoret ► Hamilton Harrison & Mathews ► Mardemootoo Balgobin ► HPRP ► Zain & Co. ►
Delany Law ► Dinner Martin ► For more information on the firms that have come together to form Dentons, go to dentons.com/legacyfirms

